OIG Investigative Reports, Former New Haven Assistant Principal Admits Stealing Federal Funds, Failure to Pay Taxes.
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
NEWS RELEASE:
Wednesday January 24,2007
CONTACT PERSON:
Tom Carson
Public Information Office
(203) 821-3722
(203) 996-1393 (cell)
United States Attorney
District of Connecticut
Connecticut Financial Center
157 Church Street
New Haven, Connecticut 06510
(203) 821-3700
(203) 773-5376 (Fax) www.wdoj.gov/usao/ct
Former New Haven Assistant Principal Admits Stealing Federal Funds, Failure to Pay Taxes
Kevin J. O'Connor, United States Attorney for the District of Connecticut,
today announced that that BEN A. HUNTER, of 276 Crescent Street, New Haven,
Connecticut, pleaded guilty today before United States District Judge Janet
Bond Arterton in New Haven to one count of theft of federal funds and one count
and subscribing to a false federal tax return.
According to documents filed with the Court and statements made in court, HUNTER,
while employed by the New Haven Board of Education as an assistant principal
at Hillhouse High Schools, was the director of an after-school and summer program
known as the Connecticut Shoot-Out Basketball Camp. The program's avowed purpose
was to provide athletic opportunities for New Haven's inner-city youth between
the ages of seven and 14. The program was funded by federal Title I funds and
was staffed by individuals who were paid with federal funds by the City of New
Haven.
In pleading guilty, HUNTER acknowledged that he perpetrated a scheme to obtain
federal funds by fraud. Specifically, HUNTER acknowledged creating fictitious
time sheets for employees of the Connecticut Basketball Association or the Connecticut
Shoot-Out Summer Basketball Camp, which he then gave to the Board of Education
for the City of New Haven. The City of New Haven generated payroll checks, using
federal Title I funds, based on the false and fictitious information provided.
Payroll checks were then provided to HUNTER for distribution to the alleged
payees. HUNTER took the checks, forged the endorsements of the alleged payees,
cashed the checks and kept the cash proceeds for his own use. HUNTER acknowledged
obtaining more than $34,000 as a result of his fraudulent scheme.
In order to avoid detection of his scheme to embezzle and obtain federal funds
by fraud, HUNTER did not report income obtained through this scheme on his Individual
Income Tax Return for the calendar years 1998 through 2002. HUNTER subscribed
his returns under the penalties of perjury knowing that they failed to report
income to him and that they were materially false. The total loss to the Government
was $15,129.
"Federal law enforcement is committed to enforcing the proper use of federal
funds by prosecuting individuals who steal them," U.S. Attorney O'Connor stated.
Judge Arterton scheduled sentencing in this matter for April 17, 2007, at which
time HUNTER faces a maximum term of imprisonment of 13 years and a fine up to
$350,000.
U.S. Attorney O'Connor commended the investigation of this matter by the Federal
Bureau of Investigation, the Internal Revenue Service - Criminal Investigation,
the Department of Education, Office of the Inspector General and the New Haven
Police Department. The case is being prosecuted by James I. Glasser, Counsel
to the U.S. Attorney.
Top
Printable view
Share this page
Last Modified: 01/26/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov